                                                                                            U.S. Department of Homeland Security
                                                                                            300 Frank H. Ogawa Plaza, Suite 275
                                                                                            Oakland, California 946 12



                                                                            I           ,   Homeland
                                                                                            Security
                                                          July 3,2006


MEMORANDUM FOR.                         Karen E. Armes
                                        Acting Regional Director
                                        FEMA Region IX

                                        &~$&&m
                                         o ert J astnco
FROM:
                                        ~ i r e c t o r ~ bProgram
                                                           nt      Management Audit Division

SUBJECT:                                Audit of Los Angeles County Department of Public Works
                                        Alhambra, California
                                        Public Assistance Identification Number 037-9101 2
                                        FEMA Disaster Number 1008-DR-CA
                                        Audit Report Number DS-05-06

The Office of Inspector General (OIG) audited public assistance funds awarded to the Los Angeles
County Department of Public Works, Alhambra, California (Department). The objective of the audit
was to determine whether the Department expended and accounted for Federal Emergency
Management Agency (FEMA) funds according to federal regulations and FEMA guidelines.

The Department received an award of $29.1 million from California Office of Emergency Services
(OES), a FEMA grantee, for debris removal and emergency protective measures; and repairs to road
and utility systems, water control facilities, and buildings and equipment damaged by the Northridge
Earthquake on January 17, 1994. The award provided 100 percent federal funding for emergency
work until January 25, 1994, and 90 percent federal funding thereafter for 33 large and 162 small
projects. I The audit covered the period January 17, 1994, to May 21, 2004, and included a review of
33 large projects and 5 small projects with a total award of $19.8 million (See Exhibit A).

We performed the audit under the authority of the Inspector General Act of 1978, as amended and
according to Government Auditing Standards issued by the Comptroller General of the United
States. The audit included a review of FEMA, OES, and Department records, a judgmental sample
of project expenditures, and other auditing procedures considered necessary under the
circumstances.

                                                   RESULTS OF AUDIT

The Department's claim included questionable costs of $1,813,454 (FEMA's share - $1,632,109).
Further, the Department earned $32,509 in interest on federal funds that had not been remitted to

1
    Federal regulations in effect at time of the disaster set the large project threshold at $42,400.
FEMA as required by federal regulations. Table 1 lists the audit findings discussed in greater detail
below.

                                                 Table 1
                                Finding Title                                    Costs Questioned
  Finding A - Ineligible Project Costs                                             $ 898,872
  Finding B - Overstated Damage Estimate                                               377,508
  Finding: C - Excess Cost Reimbursements                                              170.905
  Finding D - Unsupported Fringe Benefits Costs for Force Account Labor                307,889
  Finding E - Unsupported Legal Costs                                                   58,280
  Total                                                                            $1.8 13.454

                                                                                 Interest Earned
  Finding F - Interest Earned on Federal Advances                                     $32.509

find in^ A - Ineligible Proiect Costs

The Department's claim for 9 projects included $898,872 in ineligible project charges attributable to:
(1) operating costs within the Department's financial capability, (2) work not related to the disaster,
(3) disaster-related work not the responsibility of the Department, and (4) an ineligible project
improvement.

   Operating Costs Within the Department's Financial Capability

The Department claimed $373,300 for the disposal of household hazardous waste and products that
we determined were normal operating costs and within the Department's financial capability to pay.
FEMA funded three emergency protective measure (Category B) projects to cover the anticipated
costs of collecting and disposing of household hazardous materials that the Department believed
could have been created as a result of the disaster. The projects, collection dates, and the amounts
we questioned are shown below in Table 2.

                                                 Table 2
                                                                    Questioned
                  I   Project
                         "    Number    I    Collection Date    I    Amount        I
                           14348            February 12, 1994         $167,336
                           14349        I
                                             March 19. 1994     I
                                                                       110,016
                           14350        I    March 5, 1994      1       95,948
                           Total                                      $373.300

The Department initiated the "Countywide Household Hazardous Waste Management Program"
(program) in 1988, and has consistently budgeted for, funded, and staffed it since the program's
inception. We analyzed the Department's historical records and determined that the expenditures
claimed for Northridge Earthquake damages related to normal program operating activities and were
typical of costs incurred for the Department's ongoing events. Exhibit B shows program activity for
fiscal years ending June 1994, 1995, and 1996 and indicates that annually, the program averaged
about $3.4 million in costs and 30 hazardous collection events.
The Department claimed $373,300 for 3 of 28 program events that took place in fiscal year 1994, the
year of the disaster. Department records supporting these events identified the number of
participants2 and volume of waste collected; additionally, the records showed that the cost and
number of participants were consistent with the other 25 events conducted during the fiscal year.
Furthermore, the Department conducted 14 events before and after the disaster with no indication
that the frequency of program events or the quantity of household hazardous waste increased due to
the disaster. In fact, an event scheduled 6 days after the disaster had the third lowest number of
participants and the sixth lowest quantity of hazardous waste collected during the fiscal year.

Sections 401 and 403 of the Robert T. Stafford Disaster Relief and Emergency Assistance Act
(Stafford Act) and 44 CFR 5 206.225(a)(3) allow federal assistance to cover damage costs resulting
from major disasters that are beyond the capabilities of affected governments, including funding for
efforts to meet immediate threats to life, property, and public health and safety. We questioned the
$373,300 claimed because the collections were a normal operational activity funded by the
Department and because Department records did not demonstrate that the amounts and types of
waste collected were disaster-related or that the collections eliminated or lessened an immediate
threat to life, public health, and safety.

The Department understood the basis for this audit finding but disagreed with our conclusion that the
grants funds should be deobligated. Department officials deferred further comment until after
issuance of this report.

         Work Not Related to the Disaster

The Department claimed $291,207 against project 73457 for the cost of permanent upgrades to a
private road not damaged by the disaster. According to 44 CFR 5 206.223(a), to be eligible for
financial assistance, an item of work must be required as the result of the major disaster event, and
be the legal responsibility of an eligible applicant. FEMA's governing code also establishes specific
guidelines for performing temporary repairs to private roads. According to 44 CFR 5 206.225(b),
federal funding for repairs or replacement of emergency access routes to non-publicly owned
facilities is allowed provided that the funding (1) eliminates the need for temporary housing; and
(2) is limited to that necessary for the access to remain passable through events which can be
considered an immediate threat.

The Northridge Earthquake interrupted access between the Valencia Industrial Center (VIC), a
privately owned business ~ o m p l e xand
                                      , ~ Highway 1-5. The most direct public access road to the VIC
was temporarily closed due to disaster damage but two undamaged roads, one public and one
private, provided viable alternative access. FEMA funded the costs to upgrade the private road even
though the work did not meet eligibility requirements for public assistance funding, and the owner of
the property initiated and completed the work without first obtaining FEMA approval.

Department records showed that the project included widening the undamaged private road from a
25-foot 2-lane road to a 48-foot four-lane road; and providing improvements consisting of a bike
path, grading, pavement, striping, and guardrails. Further, according to Department records, the

2
 Citizens delivering waste to Program locations.
 VIC is the third largest industrial center in Los Angeles County with 500 companies as tenants. A California limited
partnership owned the VIC and the private road. A subsidiary of the limited partnership performed the road
improvements.
work was completed on February 14, 1994 -- 3 days prior to completion of FEMA-funded repairs to
a damaged public road that provided primary access to Highway 1-5 (Project 02257 for $72,948).
The Department requested federal funding for the improvements to the private road in March 1994
well after the work had been completed.

We also noted that FEMA initially disallowed the Department's request for federal funds to cover
project costs based on the premise that the improvements to the private road did not meet eligibility
requirements for disaster work. Following an OES appeal of FEMA7sfunding determination,
FEMA reversed its decision and approved funding for the project. In addition, records showed that
the property owner represented to the Department that it had started widening the private road 8 days
after the earthquake in response to requests f?om governmental agencies and private organization^.^

Department officials disagreed with our determination that the permanent upgrades to the private
road were ineligible for FEMA grant funding. Those officials believe that the permanent project met
the funding requirements of 44 CFR 5 206.225(a) that allows federal reimbursement for emergency
protective measures that eliminate or lessen immediate threats to lives, public health, or safety. In
addition, the Department cited a July 29, 1994 letter from the City of Santa Clarita (City) that
explained that among VIC7s500 tenants were the City's Field Services Center, a utility regional
maintenance center, a hospital supply warehouse, and an ambulance service. This letter also noted
that the road improvements possibly expedited the response times for law enforcement officials and
fire fighting.

Despite the Department's comments, we still assert that permanent upgrades to the undamaged
private road did not eliminate or lessen any immediate threats to lives, public health, or safety
inasmuch as the 2-lane road as well as a separate undamaged public road remained available and in
             7
use by VIC s tenants. Since the Department records did not include evidence that improvements to
the undamaged private road were eligible for FEMA funding, we continue to question the $291,207.

         Disaster-Related Work not the Responsibility of the Department

FEMA approved and the Department claimed costs for disaster-related work that was not the
responsibility of the Department to accomplish. For projects 84629,41720, and 01138, the
Department inappropriately claimed $121,982 in costs for disaster-related work performed on
private property. In addition, for project 04561, the Department claimed $108,183 in costs that were
the legal responsibility of an oil corporation. According to 44 CFR 5 206.223(a)(3), to be eligible
for financial assistance, an item of work must be the legal responsibility of an eligible applicant.

Work performed on private property. The following paragraphs discuss the costs claimed for work
performed on private property.

FEMA provided $121,982 to repair two private drains as follows.

1. For drain number 1984, the Department received $93,442 in funding; $13,408 for inspection
   costs under small project 84629 and $80,034 for permanent repairs under large project 98175

4
  Corporation's letter dated March 30, 1994 to the Los Angeles County Programs Development office.
  44 CFR $ 206.225 finds its basis in section 403 of the Stafford Act where hnding of emergency construction measures
is limited to those which are temporary in nature (e.g., temporary bridges, temporary facilities); 44 CFR $ 206.225(b)
specifically addresses federal hnding for repair or replacement of a private road needed for emergency access.
    (supplemental project 41720). We obtained records showing that the County Board of
    Supervisors accepted transfer of the drain from private ownership on April 25, 1995, about 15
    months after the date of the disaster. Thus, the Department did not have the legal responsibility
    to perform the initial inspection and repairs.

2. For drain number 2075 (including basin), the Department received $28,540 under small project
   01138 for repairs. However, the Department's records did not include evidence that the drain
   and basin were the legal responsibility of the Department, and we could not find any documents
   showing the date of transfer as we did for drain number 1984.

The Department disagreed with our conclusions regarding the eligibility of these projects but
acknowledged that private drain number 1984 was not transferred to the Los Angeles County Flood
Control District until April 25, 1995. The Department provided us a May 24, 1994, letter fi-om the
Department's legal counsel that, in part, stated, "...all those identified facilities that were
constructed, inspected, and found to be built substantially in accordance with the applicable plans
and specifications prior to January 17, 1994 had been purchased by Community Facilities District
No. 3 (CFD No. 3) of the County of Los Angeles, a governmental entity, prior to January 17, 1994."
Los Angeles County Counsel stated that the County, through the Department, was responsible for
the operation and maintenance of improvements once they were transferred to CFD No. 3. Based on
our review of the Funding and Acquisition Agreement for CFD No. 3, transfer of improvements
constructed by the developer on its own property are to be evidenced by recordation of acceptance
by the Board of Supervisors or other receiving agency. Although we requested such documentation
several times, the Department did not provide it.

Because the Department could not document that the private drains were conveyed to the County
Board of Supervisors before the January 17, 1994 earthquake, the Department could not support that
it was legally responsible for the repairs. Therefore, we questioned $121,982($93,442 + $28,540).

Work that was the responsibilitv of an oil company. For project 04561, the Department claimed
$108,183 in costs resulting from an oil fire that damaged the Department's storm drain system. The
Northridge Earthquake caused an oil company's pipeline to rupture and release oil into the
Department's storm drain system. The oil eventually ignited and burned the storm drain's channel
walls. FEMA and the Department agreed that the Department was not responsible for repairs.
However, the corporation only assumed the costs of removing the oil from the Department's storm
drains and did not address the damage to the walls. While FEMA initially disallowed funding for
the cleaning of the walls, it later reversed its position and agreed to cover the costs on the condition
that the Department pursued recovery from the oil company. In addition to specifying the project
scope of work,' documents supporting FEMA's project approval stated, ".. .subgrantee shall actively
pursue the recovery of funds from the owners of the escaped petroleum as per 44 CFR 5 206.15 and
5 206.223(a)(3) and as per PL 93.228, Sec. 312(c). Failure to do so could result in the loss of funds
approved herein." FEMA also informed the Department that funds collected from the oil
corporation had to be returned to FEMA.

The Department records for this project did not include documented evidence showing the
Department had fully complied with the conditions of the funding agreement. Specifically, the

  Project scope included (a) inspect the removal of oil from its drainage system; (b) assess the damages caused by the oil
igniting and burning in the system; and (c) contract costs to hydroblast the channel walls to repair the soot damage that
resulted from the fire.
Department was unable to locate any documentation showing efforts to recover the repair costs
funded by FEMA.

Department officials agreed with us that the damage to the walls was not the Department's
responsibility. They also indicated that the Department did not pursue collection of the $108,183
from the oil company as required by project documentation.

         Ineligible Project Improvement

For project 04580, the Department claimed $4,200 in costs relating to an ineligible project
improvement. According to 44 CFR 5 206.226, "Work to restore eligible facilities on the basis of
the design of such facilities as they existed immediately prior to the disaster ... is eligible.. ." for
FEMA reimbursement. The scope of project 04580 included the replacement of a 60,000 gallons
water tank that was damaged as a result of the disaster. However, the replacement tank had a 65,000
gallons capacity. The Department's records did not include justification for the higher capacity tank
nor were Department officials able to provide such information. The Department concurred with the
facts that we cited and the subsequent questioning of the $4,200 in incremental costs incurred for the
larger tank.

Summary. The nine projects discussed in the finding had ineligible costs totaling $898,872. Table 3
below shows the individual projects and the amounts we questioned.
                                                          Table 3
                                      Project Number         Questioned Amount
                                           14348                 $167.336




                                  1         Total                   $898.872

Findinp B - Overstated Damage Estimate

The Department received $730,935 under improved project 85602 to replace a pre-disaster fixed rail
tram system with an aerial tram system. FEMA funded the project based on a cost estimate provided
by the Department to repair the damaged fixed rail system to its pre-disaster design. In reviewing
the cost estimate, we identified $377,508 in duplicate pricing of damaged component^,^ costs not
related to disaster damage, and excessive construction engineering cost. Further, while the
Department estimated that replacing the damaged fixed rail tram with an aerial system would cost
about $2 million, it obtained agreement from a contractor to complete the work (including
equipment) for $710,250. At face value, it appeared that the funded project costs exceeded federal

' A disaster repair project completed in 1977 at a cost of $170,681 identified the five major system components of the
fixed rail tram system as: (1) a double rail encapsulated wheel tram cab, (2) double rails, (3) utility lines, (4) a tram
landing dock at each end of the track, and (5) the associated construction work.

                                                             6
funding limitations for improved project^.^ However, due to insufficient historical cost data relative
to previous disaster repairs, we did not take issue with the Department apparently exceeding this
funding limit. Nonetheless, as discussed below, we did take exception to the ineligible cost
components the Department included in the project estimate submitted to FEMA.

         Duplicative Costs

The Department's estimate of damage repair costs included $306,140 in duplicative costs as follows.

    As described below, we questioned $249,222 in indexed costs because the Department's damage
    repair estimate to FEMA already included separate line items for construction and material at
    current cost. In addition, while the Department included the double rail encapsulated wheel tram
    cab in the index computation, project records did not contain proof that this component was
    damaged during the disaster.

    The Department applied the Engineering News-Record (ENR) index to the costs of replacing the
    fixed rail system destroyed in the 1971 Sylmar Earthquake to obtain the 1996 value of such
    things as construction labor costs, structural and fabricated steel, cement, and lumber for repairs
    to tram system components. The Department's determination of the base costs applicable to the
    ENR index was not consistent with the 1971-1 977 replacement cost of the system ($170,681)
    and included a system component that was not damaged during the disaster. In determining the
    applicable base costs, the Department allocated 99.2 percent ($169,400) of the $170,681
    replacement cost to only two of the five system components (double rail encapsulated wheel
    tram cab and double rails). While the double rail encapsulated wheel tram cab was undamaged,
    the Department applied the ENR index to both components resulting in estimated 1996 repair
    costs that increased $249,222 from the 1977 costs.

    Notwithstanding the inclusion of the questionable "indexed" costs into its project estimate, the
    Department also included separate line items for construction and material costs in its repair
    estimate to FEMA at 1996 cost. Specifically, the double rails rested on the trestle support
    structure and the utility lines were integrated into the trestle structure. The Department's
    estimate provided separate line items of $120,000 for the trestle structure (girders, bents, post,
    diaphragms, etc.) and $40,000 for the foundation (concrete piles, drilling, etc.).

    Department officials disagreed with our conclusion and argued that the $169,400 represented the
    1977 costs that were justifiably "indexed" to 1996 dollars. These officials explained that while
    the tram cab was not damaged during the disaster, the component should be included in its
    project estimate because the total fixed rail system was discarded. Despite the Department's
    comments, we contend that since its estimate already included individual line items for
    construction and material costs, the additional cost determined using the ENR index was
    duplicative and therefore, not eligible for federal funding.

    The Department's repair estimate included $56,918 for utility lines costs that, as indicated above,
    were integrated as a separate line item into the trestle structure cost estimate ($120,000). The


 According to 44 CFR 3 206.203(d)(l), if a subgrantee desires to make improvements but still restore the pre-disaster
function of a damaged facility, the Grantee's approval must be obtained. Federal fknding for such improved projects
shall be limited to the federal share of the approved estimate of eligible costs.
       Department concurred that a separate line item for utility lines was not warranted since the
       related costs were already included in the estimate for the trestle structure.

           Costs not Related to Disaster Damage

The Department's damage estimate, used by FEMA when it approved the improved project,
included $50,000 for the replacement of two ground-level passenger-loading platforms not damaged
by the disaster. The platforms became obsolete when the Department requested and received FEMA
approval to construct an aerial tram system instead of repairing the fixed rail system. FEMA's
improved project guidelines and regulations set the funding cap at the repair estimate for
components and facilities damaged by the disaster. Department officials argued that although the
platforms were not damaged, the costs should be eligible for reimbursement since the total fixed rail
system was discarded.

           Excessive Construction Engineering Costs

In its approved $730,935 estimate of eligible repair costs, FEMA allowed the Department to include
a 6 percent fee charged by a contractor for construction engineering costs. Because we questioned
$356,140 in duplicative and non-disaster related costs included in the approved estimate, we also
question the $21,368 construction engineering fee applicable to this a m o ~ n t The
                                                                                 . ~ Department
agreed with our calculation of excessive engineering costs for the duplicative estimate for utility line
work ($56,918); but did not agree that the fee estimate should be reduced for the other costs we
questioned in this finding.

Applicable Criteria and Conclusion. According to 44 CFR 5 206.203, federal funding for
improved projects is limited to the federal share of the approved estimate of eligible costs associated
with repairing the damaged facility components (eligible costs) to its pre-disaster design. In
addition, 44 CFR 5 206.223 provides that an item of work must be required as a result of a major
disaster to be eligible for financial assistance. Further, 44 CFR 5 13.20 (b)(6) requires the
Department to maintain accounting records that identify how federal funds are used. Since the
Department's cost estimate for the improved project included duplicative cost items, cost not related
to disaster damage, and excessive construction engineering charges; we questioned $377,508
($306,140 +$50,000 +$21,368).

Findinrr C - Excess Cost Reimbursements

The Department received $170,905 in excess reimbursements for project 85602 when FEMA
provided additional funding to the project in 1999. FEMA initially classified and obligated the
funding of the repair work as an improved project. FEMA estimated the pre-disaster eligible repair
commitment cost at $730,935; and obligated $661,496 representing FEMA's cost share plus the
associated administrative allowance on August 1, 1996. According to 44 CFR 8 206.203(d)(l),
federal funding for an improved project is limited to the federal share of the approved estimate of
eligible costs.




9
    $356,140 times 6%.
In July 1999, FEMA made, and the Department accepted, a "bundled" Grant Acceleration Program
(GAP) award offer that included project 85602." FEMA Region IX officials explained that the
FEMA Director, in a letter dated June 16, 1999, authorized the creation of "GAP site projects" for
Los Angeles County and approved the bundling of projects when they (i) shared the same Public
Assistant Identification Numbers, (ii) were in the immediate vicinity, (iii) served the same function
or supporting function, and (iv) represented permanent work. We do not question FEMA's
procedures for bundling projects but do question the additional funding provided in July 1999
because of the regulatory funding limitation imposed on an improved project.

FEMA bundled projects meeting the criteria specified above and used GAP cost estimating
procedures to determine the July 1999 GAP offer amount. The additional funding for project 85602
resulted from FEMA applying cost estimating procedures that allow for the inclusion of "soft costs"
in the offer. These soft costs related to inflation, owner's reserve for changes (typically made during
design and construction), architectural and engineering design costs, and project management fees
for the design and construction phase. Notwithstanding that the soft costs would have been included
in the initial grant award in 1996, the regulations in effect at the time of the disaster established the
maximum hnding limit for improved projects as the federal share of eligible disaster repair costs, or
$661,496. As of October 1,2005,44 CFR §206.203(d)(l) still contained the same language
specifying the funding limitations on improved projects.

FEMA Region IX officials agreed that project 85602 was initially classified and funded as an
improved project and that the project was substantially complete when the additional funding for soft
costs was determined. These officials explained however, that the project was included in the GAP
award to the Department and that GAP guidelines may be interpreted to allow for increased funding.
However, because federal regulations established the maximum funding allowed for improved
projects, the additional $170,905 in soft cost funding included in the GAP award for this project,
resulted in excess reimbursements to the Department because the funds provided by FEMA
exceeded the regulatory funding limit for an improved project.

Finding D - Unsupported Fringe Benefits Costs for Force Account Labor

The Department claimed $197,347 in excessive fringe benefits costs for straight time labor and
$110,542 in excessive fringe benefits costs for overtime labor because its fringe benefits rates were
inconsistent with FEMA criteria for determining the appropriate disaster eligible costs. Exhibit D
provides details regarding the amounts we questioned for the 42 projects and project supplements
reviewed.

To determine the actual straight time and overtime benefit rates the Department should have applied
for claiming disaster costs, we evaluated the Department's methodology for calculating the rates
over a 6-year period (1994 through 1999). Also for the same time period, we computed the fringe
rates using FEMA's criteria.




10
  FEMA developed the Public Assistance GAP to establish a final financial offer with the granteelsubgrantee for eligible
work. The GAP provided a fixed level of maximum funding to cover the total cost of eligible scope of repair to
damaged facilities.

                                                           9
        Straight Time Fringe Benefit Rate

Our review showed that over the 6-year period, the Department's average straight time fringe
benefits rate was 44.85 percent in contrast to an average FEMA rate of 36.75 percent. For 1994, the
Department calculated a fringe benefits rate of 52.98 percent (paid 33.92 percent and unpaid
19.06 percent). However, using FEMA criteria," we determined the rate allowable for disaster
reimbursement was 39.3 0 percent (paid 24.98 percent and unpaid of 14.32 percent). As discussed
below, we determined that the Department's rate included ineligible cost components and its
calculation of the nonproductive leave benefit rate was not consistent with FEMA's guidelines for
determining this rate.

     The Department's rate included two cost components that were not paid or accrued fringe
     benefits for the Department's permanently employed personnel performing eligible disaster
     work.12 Instead, these two cost components represented overhead costs funded on a pay as you
     go basis:

     1. Retiree Health Insurance - represents benefits paid to nearly 33,000 retirees and their
        dependents enrolled in the program's medical plans and over 32,000 retirees and dependents
        enrolled in the program's dentallvision plans. The entry on the County's general ledger
        represents the County's portion of the premiums paid in conjunction with enrolled retirees.

     2. Retirement Certificates of Participation - Los Angeles County issued bonds or certificates to
        fund its unfunded actuarial accrued liability for the retirement benefits of its employees. The
        issuance of such bonds represents a reclassification of a previously existing obligation.

     The Department's methodology for calculating the nonproductive leave benefits rate (vacations,
     holidays, jury duty, sick leave, etc.) did not comply with FEMA's guidelines.13 Further, this
     methodology was inconsistent with guidelines provided by the State to assist FEMA grant
     applicants in identifying eligible FEMA reimbursable force account labor costs.14

        Overtime Fringe Benefits Rate

Our review showed that over a 6-year period (1994 through 1999), the Department claimed an
overtime fringe benefits rate of 18.81 percent. OIG and Department officials agreed the more
appropriate average rate should have been approximately 3.15 percent.

Applicable Criteria and Conclusion. According to 44 CFR tj 206.228(a)(4), federal funding is
allowed for eligible straight time salaries and benefits of an applicant's permanently employed
personnel performing eligible permanent restoration; and indirect costs are funded under the
subgrantee's statutory administrative allowance. In addition, 44 CFR tj 13.20(b) requires the
Department to maintain accounting records that identify how FEMA funds are used and to follow

II
   FEMA Form 90-128 calculates the straight time fringe benefit rate by dividing annual nonproductive hours
(numerator) by the total normal work hours for the year - excluding weekends (denominator).
   Excerpt from the Department's personnel records show that these cost components were unrelated to the Department's
permanently employed personnel. See Exhibit C for more information.
13
   The Department followed FEMA guidelines except that it reduced the denominator by the total non-productive hours
resulting in a higher leave rate.
14
   See Exhibit C for details regarding State guidelines.
Office of Management and Budget (OMB) cost principles, agency program regulations, and the
terms of grant and subgrant agreements in determining reasonable costs, allowability, and
allocability of costs. OMB Circular A-87, Attachment A, Section C, provides that for a cost to be
allowed, it must conform to any limitations or exclusions set forth in federal law and grant
requirements.

The Department disagreed with our conclusion that it was required to follow FEMA criteria for
determining fringe benefits and calculating the nonproductive leave benefits rate. The Department
asserted that OMB Circular A-87 (Revised 5/4/95, as further amended 8/29/97) Attachment B,
Section 1 l(f) allowed the inclusion of post-retirement health benefits in calculating fringe benefits
and that FEMA is required to comply with the Circular. The Department also noted that other
federal agencies have accepted the Department's treatment of fi-inge benefit costs for their
reimbursement programs. In regard to the calculation of the nonproductive rate, the Department
explained that it used a formula provided by the State of California for documenting disaster costs
and that the formula was accepted by other federal programs.

Despite the Department's explanations, we still believe the Department was required to follow
FEMA criteria for determining fringe benefit costs. As noted previously, 44 CFR and OMB Circular
A-87 require grantees and subgrantees to abide by grant agreement conditions to ensure federal
reimbursement for eligible costs. Further, the State of California's guidelines referenced by the
Department specifically informed the applicant that formulas based on indirect costs were not
appropriate for calculating FEMA fringe benefits reimbursement. As such, we continue to question
$307,889 as excessive fringe benefits cost ($197,347 plus $110,542).

Finding; E - Unsupported Legal Costs

The Department claimed $58,280 in unsupported legal expenses for project 82103. The
Department's accounting records identified the cost as expenses incurred to resolve issues with a
contractor but did not include detailed information explaining the nature and eligibility of the
expenses. According to 44 CFR 13.20(b), the Department is required to maintain accounting records
that identify how FEMA hnds are used.

The Department reserved comment on this finding pending hrther research to determine the purpose
of the legal expenses. However, since accounting records reviewed did not support the eligibility of
amounts claimed, we question $58,280 of the Department's claim.

Finding F - Interest Earned on Federal Advances

The Department failed to remit to FEMA $32,509 of interest earned as required by federal
regulations on a $1.5 million FEMA advance. According to 44 CFR 5 13.21(i), grantees and
subgrantees are required to remit to FEMA the interest earned on advances at least quarterly.

In response to a request from the Department and OES, FEMA advanced the Department
$1.5 million to replace three water storage tanks. The advances were provided in two payments,
$611,730 in March 1994 (project 82103) and $896,023 in May 1994 (project 82100). Accounting
records documented that the Department remitted to FEMA $3,847 for interest earned on the
advances. However, using the Department's records that documented expenditures for the three
water storage tanks and documents that identified investment interest rates,16we determined that the
Department should have remitted to FEMA $36,356. Thus, the Department failed to remit $32,509
($36,356-$3,847). The Department agreed that it did not remit all of the interest earned on federal
advances.

The Comptroller General of the United States has consistently held that, except as otherwise
provided by law, interest earned by a grantee on funds advanced by the United States under an
assistance agreement pending their application to grant purposes belongs to the United States and
that all such interest is required to be accounted for as funds of the United States." As such, FEMA
Region IX should take immediate action to recover the $32,509 in interest earned on public
assistance funds advanced to the Department.

                                           RECOMMENDATIONS

We recommend that the Acting Regional Director, FEMA Region IX, in coordination with OES,

     1. Disallow $1,334,660 of ineligible, duplicative, and unsupported costs claimed by the
        Department (Findings A, B, & E). I*

     2. Disallow $170,905 of excess reimbursements claimed by the Department costs in excess of
        the regulatory funding limit for improved projects (Finding C).

     3. Disallow $307,889 of the Department's claim for force account labor fringe benefit costs that
        were ineligible (Finding D).

     4. Recover $32,509 of interest earned on federal funds but not remitted by the Department to
        FEMA (Finding F).

                DISCUSSION WITH MANAGEMENT AND AUDIT FOLLOW-UP

We discussed the results of this audit with Department and FEMA Region IX officials on June 8,
2005. The Department's comments provided after the formal exit conference are included with the
respective findings. We also notified OES officials of the audit results on June 21,2005. Since our
exit conferences, we have worked intermittently with the Department and FEMA officials to obtain
and review additional information and to answers questions or provide working paper support for
our audit conclusions.

Please advise this office by September 1, 2006, of the actions taken to implement the
recommendation in this report. Should you have any questions concerning this report, please contact
me at (510) 637-4311. Key contributors to this assignment were Humberto Melara and Curtis
Johnson.




I6
  The Los Angeles County Pooled Surplus Investment Fund Interest Rates for the period from July 1993 to June 1996.
17
  GAO Principles of Federal Appropriations Law, Vol. 11, Chapter 10, Section E3., Interest on Grant Advances (1992),
  Project 41720 appears in Finding A and Finding D. If the Finding A total is disallowed as recommended, the
recommended deobligation of $2,650 in Finding D for this project should be disregarded.
                                                                       Exhibit A
                                                                      Page 1 of 2

                    Schedule of Audited Projects
Los Angeles County Department of Public Works, Alhambra, California
         Public Assistance Identification Number 037-91012
               FEMA Disaster Number 1008-DR-CA
                                                                                         Exhibit A
                                                                                        Page 2 of 2

                                  Schedule of Audited Projects
              Los Angeles County Department of Public Works, Alhambra, California
                       Public Assistance Identification Number 037-91012
                             FEMA Disaster Number 1008-DR-CA




           98378      67248          5,586,905              1,605              D
           98378      85602            730,935            551,678           B, C, D
          Small Projects               102,887             41,948              A
          Totals Page 2 of 2        10,579,728 .         $866,277
          Totals Page 1 of 2         9,234,147            947,177
          Grand Totals             $19.813,875         $1.813.454

* The questioned cost exceeds the award amount because it includes reportable conditions identified
in Findings A ($80,034) and D ($2,441). Should FEMA accept the OIG's recommendation for
Finding A, FEMA should not pursue corrective action for Finding D.

                                   Schedule of Audited Projects
                          Interest Under-Remitted Detailed as Finding F




              82103            611,730        18,086        1,667         16.419
              Totals        $1.507.753      $ 36,356      $ 3.847       $ 32,509
                                                                                                             Exhibit B
                                                                                                            Page 1 of 2

                  Los Angeles County Department of Public Works, Alhambra, California
                           Public Assistance Identification Number 037-9 1012
                                 FEMA Disaster Number 1008-DR-CA
      Legend:
         # - Number of program events conducted during year.
         Ave $ per program - Average cost or expenditure for a program event.
         Participants Car Total - Number of cars delivering waste material to the program.
         Locations in BOLD & ITALICS were FEMA reimbursed.
        28 Program Events Conducted During Fiscal Year Julv 1,1993 thru June 30,1994




"he       Department's activity schedule for these three events totaled $368,709 while the claimed amount totals
      $373,300.
                                                                            Exhibit B
                                                                           Page 2 of 2

Analvsis of Program Events Conducted bv Fiscal Years from 1994 thru 1996




   Analvsis of Annual Fiscal Year Costs and Number of Program Events
                                                                                            Exhibit C

               Los Angeles County Department of Public Works, Alhambra, California
                        Public Assistance Identification Number 037-91012
                              FEMA Disaster Number 1008-DR-CA

                         Comparison of Non-Productive Rate Calculation

                FEMA's Method                                    Department's Method
The normal year consists of 2080 hours (52         Annual hrs (365 days * 8 hrldays)      2,920
weeks x 5 workdayslweek x 8 hourslday). This       Sat. & Sun. (52 wks * 2 days * 8 hrlday 832
does not include holidays and vacations.            Straight Annual Hours                 2,088
                                                   Less: Paid absence, vacation, holiday,
Note: For comparison purposes, we used 2,088
hours as Straight Annual Hours with no material    jury duty                                - 299
difference in the rate calculated.                 Productive work hours for FY             1,789

Fringe benefit percentage for leave time: Divide   Non-productive percentage for absences: Divide
the number of hours of annual leave time           the number of hours of leave time provided to the
provided to the employee by 2080 Key: the          employee by 1,789 Key: the productive hour
normal hour year in the denominator or base        year in the denominator or base (29911,789 =
(29912088 = 14.3%)                                 16.713%)

 Footnote #12 examples of costs unrelated to permanently employed personnel: "Retiree Health
 Insurance" represented benefits paid to over 32,000 retirees and their dependents enrolled in the
 program's medical plans and dentallvision plans. From 1994 through 1999, the Department's
 portion for Retiree Health Insurance benefits averaged $3.7 million. Also, "Long Term Disability"
 represented actual payments made by the Department to employees that had been out of work due to
 illness or sickness for 6 months or more. From 1994 through 1999, the Department paid an average
 of $671,000 for this cost category.

 Footnote #14 - Details on fringe benefits computations and indirect costs: The California State
 Controller's Office Division of Audits issued in January 1995 Guidelines for Documentinp Disaster-
 Related Response and Recovery Costs for Federal (FEMA) and State (NDAA) Public Assistance
 Programs. Page 13 of the manual reflects the Nonproductive Leave Time calculation consistent with
 the County's methodology. Page 14 then contains a discussion and calculation of Fringe Benefits.
 Thereafter the following appears - CAUTION: Do not combine fringe benefit rates with indirect cost
 rates or productive hourly rates. FEMA will not accept indirect or overhead costs. Page 16 notes
 that Indirect Costs are an additional eligible labor cost under the state's disaster program, NDAA.
 Page 18 notes - FEMA does not allow indirect cost rates under its program; however, you should
 include the indirect costs as part of your site or DSR costs. FEMA will exclude the costs from its
 DSR, but OES will use the rate and costs in its DSR.
                                                                                    Exhibit D

           Los Angeles County Department of Public Works, Alhambra, California
                    Public Assistance Identification Number 037-91012
                          FEMA Disaster Number 1008-DR-CA

               Unsupported Fringe Benefits Costs for Force Account Labor




04556      32,342.40        481.85     24,379.08         9.60       7,963.33          472.25
04560       2,357.77             0      1,717.97             0        639.80                0
04566      78,857.96      7,019.33     63,860.38     1,017.91      14,997.58        6,OO1.42
04577       5,528.02         29.07      4,027.95         3.92       1,500.07           25.15
04580      41,572.43      1,858.15     31,593.11       260.01       9,979.33        1,598.14
04581       2,494.28             0      2,185.57             0        308.72                0
06317              0      4,438.01             0       680.83              0        3,757.19
06319       6,190.61        462.92      5,424.40        71.02         766.21          391.91
06341              0      5,213.36             0       799.77              0        4,413.59
06354              0     11,550.47             0     1,771.93              0        9,778.54
06368       1,530.79          4.86      1,341.33           .75        189.47            4.12
06387         838.47        796.57        734.69       122.20         103.78          674.37
06388       3,214.97      1,430.78      2,817.05       219.49         397.92        1,211.29
06998      82,152.34      1,605.35     61,764.28       218.31      20,388.06        1,387.04
14943              0      8,831.19             0     1,190.07              0        7,641.11
41720      19,722.79             0     17,281.69             0      2,441.10                0
41725      30,053.54      2,684.30     21,898.27       361.73       8,155.26        2,322.57
41779      28,303.14        154.98     20,622.86        20.89       7,680.28          134.10
41780      73,743.96      2,097.51     53,732.96       282.66      20,011.OO        1,814.85
46163     203,436.31     38,267.12    148,232.27     5,156.80      55,204.04       33,110.31
46765       8,223.29        174.88      6,576.10        27.50       1,647.19          147.38
47598       3,898.20      2,659.17      3,117.36       418.12         780.84        2,241 -06
48301      12,848.66        487.84      9,387.76        71.63       3,286.91          416.20
48743              0      3,119.44             0       478.55              0        2,640.89
48761       5,219.06             0      3,802.83             0      1,416.23                0
67248       6,985.45        244.28      5,586.21        38.41       1,399.24          205.87
73541       8,106.66        194.11      5,906.85        26.16       2,199.81          167.96
73546              0        233.01             0        35.75              0          197.27
73584       3,172.64         25.49      2,311.72         3.44         860.92           22.06
73596         924.95         68.19        810.47        10.46         114.48           57.73
78490       5,098.79             0      4,077.47             0      1,021.33                0
82100      48,179.26      3,605.72     42,216.10       553.15       5,963.16        3,052.57
82103      34,786.71      2,544.22     30,481.15       390.30       4,305.56        2,153.92
85602      25,893.14         70.54     22,688.34        10.82       3,204.80           59.72
87626      41,877.64        107.62     30,513.81        14.50      11.363.83           93.12
Totals   $866,113.29   $129,095.71   $668.592.57   $18253.52     $197,346.76     $110.542.25
